                           U.S. Department of Housing and Urban Development
                                  Office of Inspector General
                                       451 Seventh Street, SW
                                      Washington, DC 20410-4500
                                  Phone: (202) 708-0390 Fax: (202) 708-1354



                                            September 27, 2011


MEMORANDUM FOR:             Mercedes M. Marquez, Assistant Secretary for Community
                            Planning and Development, D



FROM:         James B. Ward, Director, Inspections and Evaluations Division, Office of
              Investigation, GIH

SUBJECT:      Inspection of the Washington, DC Department of Housing and Community
              Development’s participation in HUD’s Emergency Shelter Grant Program

              File: IED-11-007M

                                     INTRODUCTION

The Office of Inspector General, Inspections and Evaluations Division (IED), conducts
independent, objective examinations of U.S. Department of Housing and Urban Development
(HUD) activities, programs, operations, and organizational issues.

We conducted an inspection of the Washington, DC Department of Housing and Community
Development’s (DHCD) participation in HUD’s Emergency Shelter Grant (ESG) program in
order to determine whether DHCD (the grantee) and its sub-recipients:

   I. appropriately used HUD grant funds for eligible homeless assistance services, and
   II. accurately entered required information into the Integrated Disbursement and Information
       System (IDIS)

We determined that DHCD did not use HUD Emergency Shelter Grant funds for inappropriate or
ineligible purposes for the transactions that we reviewed. Our inspection also determined that
the required information was accurately entered into IDIS for the sample of transactions
reviewed.
                                                                            IED-11-007M


                                        BACKGROUND

Emergency Shelter Grants (ESG) Program

ESG was authorized under Subtitle B of Title IV of the McKinney-Vento Homeless Assistance
Act of 1987, as amended and provides homeless persons with basic shelter and essential
supportive services. Title 42 United States Codes 11374 and 11378 outline the program’s eligible
activities and use of funds for administrative costs, respectively. HUD’s Emergency Shelter
Grant (ESG) Program Desk Guide provides an overview of the program, describes the funding
process, and covers topics including the initial application, grant administration, project
implementation, and performance monitoring.

ESG is a formula-funded program that uses the Community Development Block Grant formula
as the basis for allocating funds. Grantees, including state governments, large cities, urban
counties, and U.S. territories, receive ESG grants and make these funds available to eligible sub-
recipients. Sub-recipients can be either local government agencies or private nonprofit
organizations.

HUD and ESG grantees use the Integrated Disbursement and Information System (IDIS) and the
Grants Management Process (GMP) System to administer the program. IDIS performs financial
management, information reporting, and performance monitoring capabilities. GMP is a
monitoring and tracking system used by HUD to document monitoring review results, post
monitoring reports, and record risk assessments (risk analysis) results.

Each grantee is also required to submit a Consolidated Annual Performance and Evaluation
Report (CAPER) to the local HUD field office within 90 days after the end of the program year1.
The CAPER is an annual report on a grantee’s progress in meeting goals set out in its
Consolidated Plan.

Funding for the Washington, DC ESG program was allocated to the Department of Housing and
Community Development (DHCD). DHCD was awarded $808,603 and $802,910 in plan years
2008 and 2009, respectively. DHCD awarded sub-grants to two nonprofit organizations, My
Sister’s Place (MSP) and the Community Partnership for the Prevention of Homelessness (TCP),
respectively. As HUD’s grantee, DHCD was responsible for monitoring its ESG sub-recipients
and approving and verifying voucher requests.


                               SCOPE AND METHODOLOGY

We reviewed applicable ESG criteria and guidance; grantee and sub-grant agreements; IDIS and
DHCD system reports; and, voucher requests with supporting documentation. We also
interviewed responsible HUD and DHCD staff members.


1
 DHCD’s fiscal year is the same as HUD’s program year, which is from October 1st to
September 30th.

                                                2
                                                                           IED-11-007M


The inspection covered grant funding and activities for two fiscal years (FYs) from October 1,
2007 to September, 30 2009 (FY2008 and FY2009). We examined documentation for the
largest draw downs for each fiscal year as shown in IDIS as of March 1, 2011. The highest
amounts drawn down for FYs 2008 and 2009 were $968,165.51 for MSP and $177,598.97 for
TCP, respectively.


We conducted the inspection in accordance with the Quality Standards for Inspections issued by
the Council of the Inspectors General on Integrity and Efficiency.


                                          RESULTS


I. Did DHCD and its sub-recipients appropriately use HUD grant funds for eligible
   homeless assistance services?

Based on the transactions reviewed, we found no instances in which DHCD used ESG funds for
purposes other than eligible homeless assistance services.


II. Did DCHD and its sub-recipients accurately enter required information into the
    Integrated Disbursement and Information System (IDIS)?

DHCD accurately entered required voucher information into IDIS for the sample of transactions
that we reviewed.




                                               3
